^1

In the United States Supreme Court
Petition for Writ of Certiorari
Probir Kumar Bondyopadhyay vs. United States of America

APPENDIX-A
Judicial response of the three member Judicial Panel of the
U.S. Court of Appeals for the Federal Circuit (CAFC)
[The CAFC did NOT address the Jeffersonian Claim of the U.S.
Constitutional Creature under Article 1 Section 8 Clause 8 to be
addressed EXCLUSIVELY under Title 28 USC Sectionl498(a)
- the Constitution Law.]

Case: 20-2091

Document: 43

Page: 1

Filed: 03/11/2021

NOTE: This disposition is nonprecedential.

©mteb States Court of Appeals;
for tfje Jfetieral Ctrratt
PROBIR KUMAR BONDYOPADHYAY,
Plaintiff-Appellant
v.
UNITED STATES,
Defendant-Appellee
2020-2091
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01831-MBH, Senior Judge Marian Blank
Horn.
Decided: March 11, 2021
Probir Kumar Bondyopadhyay, Houston, TX, pro se.
JOSHUA Miller, Commercial Litigation Branch, Civil
Division, United States Department of Justice, Washing­
ton, DC, for defendant-appellee. Also represented by
Scott David Bolden, Jeffrey B. Clark, Gary Lee
Hausken.

Case: 20-2091

Document: 43

Page: 2

2

Filed: 03/11/2021

BONDYOPADHYAY v. US

Before PROST, Chief Judge, LOURIE and REYNA, Circuit
Judges.
Per Curiam.
Dr. Probir Kumar Bondyopadhyay appeals from a de­
cision of the United States Court of Federal Claims (the
“Claims Court”) dismissing his complaint against the
United States. He alleged a “violation” of U.S. Patent
6,292,134 (the “’134 patent”), a patent infringement-based
taking by the government, and fraud. See Bondyopadhyay
v. United States, 149 Fed. Cl. 176, 179-83 (2020) (“Deci­
sion”). Because the court correctly concluded that the
claims were barred by res judicata or for lack of jurisdic­
tion, we affirm.
Background
Dr. Bondyopadhyay filed a complaint in the Claims
Court on November 27, 2019, alleging that the United
States “violat[ed] [his] Exclusive Right for Limited Times,”
the ’134 patent. Decision at 179. The ’134 patent relates
to a “geodesic sphere phased array antenna system” for
“multi-satellite tracking and communications.” T34 pa­
tent, Abstract, col. 3 11. 3-6. Dr. Bondyopadhyay accused
the government of a “violation of Exclusive Right for
Limited Times of an Inventor, Owner, U.S. Citizen [which
is] a U.S. Constitutional Order that can NOT be dismissed
by any Article 3 U.S. Courts or Article 1 U.S. Courts, cre­
ated under Section 8, Clause 9.” Decision at 179 (emphasis
in original). Dr. Bondyopadhyay stated that the govern­
ment (<has taken the livelihood of this Independent Inventor
for a prolonged period of eleven years and 23 days and con­
tinues to remain indifferent towards this Constitutional
Order for a long time.” Id. at 182 (emphasis in original).
Dr. Bondyopadhyay further argued that the government
committed “acquisition of Innovation fraud under Title 15
USC section 638(a) and 638(b)” and “honors [a] false inven­
tor.” Id. at 179, 182-83 (original formatting omitted). In
the complaint, Dr. Bondyopadhyay did not expressly focus

Case: 20-2091

Document: 43

BONDYOPADHYAY V. US

Page: 3

Filed: 03/11/2021

3

on a specific device as infringing the ’134 patent claims. Id.
at 187. He instead referred to government technology that,
in 2014, he accused of infringing the ’134 patent. Id.
This is the second time that Dr. Bondyopadhyay has
appealed to this court regarding the ’134 patent. See Bon­
dyopadhyay v. United States, 748 Fed. App’x 301 (Fed. Cir.
2018) (^‘Bondyopadhyay I AppeaF), affg Bondyopadhyay i>.
United States, 136 Fed. Cl. 114 (2018) (“Bondyopadhyay
i”). On February 23, 2014, Dr. Bondyopadhyay filed a com­
plaint in the Claims Court accusing the United States Air
Force of infringing the ’134 patent by “using and manufac­
turing a portion of a phased antenna array system.” Bon­
dyopadhyay I at 116. The accused device at issue in that
case was “the Ball Advanced Technology Demonstration
antenna.” Id. at 118-19.1 On March 20, 2015, the court
granted the government’s partial motion to dismiss his
claims for pre-January 11, 2008 damages as time barred by
the six-year statute of limitations set forth in 28 U.S.C.
§ 2501 and any claims that arose after the ’134 patent ex­
pired on September 18, 2009. See Bondyopadhyay v.
United States, No. 14-147C, 2015 WL 1311726, at *7 (Fed.
Cl. Mar. 20, 2015). The court also dismissed Dr. Bondyopadhyay’s Fifth Amendment takings claim. See id. at *6.
After the claim construction phase, the Claims Court
granted the government’s August 23, 2017 motion for sum­
mary judgment. See Bondyopadhyay/at 120-21,124. The
court found that the accused device did not infringe the
’134 patent literally or under the doctrine of equivalents.
See id. On appeal, this court determined that the Claims
Court “correctly granted summary judgment of

i

We previously discussed the ’134 patent and the
technology at issue in the Bondyopadhyay I Appeal opin­
ion. See id. at 302-05.

Case: 20-2091

4

Document: 43

Page: 4

Filed: 03/11/2021

BONDYOPADHYAY v. US

noninfringement in favor of the government.” Bondyopadhyay I Appeal at 308.
In the present case, the Claims Court interpreted
Dr. Bondyopadhyay’s complaint as setting forth three
claims: (1) infringement of the ’134 patent, (2) a patent in­
fringement-based Fifth Amendment taking, and (3) fraud­
ulent or false conduct. See Decision at 179. Regarding the
infringement claim, the court determined that Dr. Bondyopadhyay already litigated that issue to a final judgment
in the Bondyopadhyay I case, so his infringement claims
were barred by the doctrine of res judicata. See id. at 190.
The court found that Dr. Bondyopadhyay did “not refute
[the government’s] statements in its motion to dismiss . . .
that ‘[t]he device made pursuant to this Acquisition Time­
line is the Ball Advanced Technology Demonstration an­
tenna,’
or
that
‘the
exhibits
appended
to
[Dr. Bondyopadhyay’s] complaint and in Bondyopadhyay I
make clear that [Dr. Bondyopadhyay] accuses the exact
same device of infringing the exact same patent.’” Id. at
189-90 (emphasis in original).
Next, for the same reasons discussed in the Bondyo­
padhyay I opinion, the Claims Court determined that it
lacked subject matter jurisdiction to hear Dr. Bondyopadh­
yay’s patent infringement-based Fifth Amendment takings
claim. See id. at 191 (“[T]o the extent plaintiff alleges a
taking claim based on the alleged infringement of the ’134
patent, this court lacks jurisdiction to hear such a claim as
a Fifth Amendment taking claim.”). Furthermore, the
court determined that Dr. Bondyopadhyay’s fraud allega­
tions were tort claims which are expressly excluded from
its jurisdiction by the Tucker Act. See id. at 192; 28 U.S.C.
§ 1491(a). The court thus determined that it lacked subject
matter jurisdiction to adjudicate those fraud-based claims.
See Decision at 192 (“[P]laintiffs allegations of fraudulent
or false conduct on the part of the defendant . . . must be
dismissed for lack of jurisdiction in this court.”).

Case: 20-2091

Document: 43

Page: 5

Filed: 03/11/2021

5

BONDYOPADHYAY v. US

». -

The Claims Court additionally considered whether
Dr. Bondyopadhyay’s claims were barred by the applicable
statute of limitations. See id. at 192-94. As set forth in 28
U.S.C. § 2501, the statute of limitations for every claim of
which the court has jurisdiction is six years after such
claim first accrues. The court determined that, even if the
statute of limitations could be tolled by 28 U.S.C. § 286 for
an additional 44 days, “under any plausible formulation of
the claims in [Bondyopadhyay’s] complaint, the current
case, which was filed on November 27, 2019, was not filed
within the applicable statute of limitations pursuant to 28
U.S.C. § 2501 and 35 U.S.C. § 286.” Id. at 194. The court
thus dismissed Dr. Bondyopadhyay’s complaint, stating
that he “did not offer any evidence or argument as to why
[his] current case for patent infringement against the
United States is not materially identical to the patent in­
fringement claims at issue in [his] previous case in this
court, or why his current case is within the applicable stat­
ute of limitations.” Id.
Dr. Bondyopadhyay timely appealed. We have juris­
diction pursuant to 28 U.S.C. § 1295(a)(3).2
Discussion
We review dismissals by the Claims Court for res judi­
cata or for lack of jurisdiction de novo. Frazer v. United
States, 288 F.3d 1347, 1351 (Fed. Cir. 2002). A plaintiff
“bears the burden” of demonstrating jurisdiction. Thomson
v. Gaskill, 315 U.S. 442, 446 (1942). Although pro se plain­
tiffs are entitled to a liberal construction of their complaint,

2 Dr. Bondyopadhyay’s opening brief references Bon­
dyopadhyay v. Secy of Defense, No. 4:13-cv-01914 (S.D.
Tex.). See, e.g., Appellant’s Br. 2-4, 6, 11, 14-16. To the
extent Dr. Bondyopadhyay challenges that district court’s
findings in this appeal, we lack jurisdiction over any such
challenges.

Case: 20-2091

6

Document: 43

Page: 6

Filed: 03/11/2021

BONDYOPADHYAY v. US
*

see Haines v. Kerner, 404 U.S. 519, 520-21 (1972), the leni­
ency afforded pro se litigants with respect to mere formali­
ties does not relieve them of jurisdictional requirements,
Kelley v. Secy, U.S. Dep’t of Labor, 812 F.2d 1378, 1380
(Fed. Cir. 1987).
Beginning with the patent infringement claims,
Dr. Bondyopadhyay argues that the doctrine of res judicata
does not apply. See Appellant’s Br. 15. He states that the
Claims Court “failed to correctly apply” 28 U.S.C.
§ 1498(a). Id. at 7. Dr. Bondyopadhyay asserts that the
court misunderstood that the issue is unauthorized use of
the ’134 patent for 12 years and 229 days—distinguishing
between the idea of an alleged use of the ’134 patent by the
government versus a need to identify an accused device
that falls within the scope of any of the ’134 patent claims.
See Appellant’s Reply Br. 10. Dr. Bondyopadhyay claims
that a July 30, 2002 letter from the Air Force Legal Ser­
vices Agency is proof of patent infringement by admission.
See Bondyopadhyay I, ECF17, Ex. 2 (No. 14-147C).
Dr. Bondyopadhyay characterizes the letter as admitting
to infringement of the ’134 patent by the government’s “ex­
perimental use.” Appellant’s Reply Br. 2, 8, 12.
The government responds that Dr. Bondyopadhyay al­
ready brought identical infringement claims against the
same party and litigated those claims to a final judgment,
so the doctrine of res judicata resolves this issue. See Ap­
pellee’s Br. 8, 11-12.
The government asserts that
Dr. Bondyopadhyay’s argument that the antenna system
could not be fully built during the life of the ’134 patent is
a new argument and, regardless, one that supports the
Claims Court’s dismissal of his infringement claims. See
id. at 9.
Under the doctrine of res judicata, a final judgment on
the merits precludes the same parties from relitigatin^
claims that were raised or could have been raised before.
See Faust v. U.S., 101 F.3d 675, 677 (Fed. Cir. 1996).

t

Case: 20-2091

Document: 43

BONDYOPADHYAY V. US

Page: 7

Filed: 03/11/2021

7

“Claim preclusion requires (1) an identity of parties or their
privies, (2) a final judgment on the merits of the first suit,
and (3) the later claim to be based on the same set of trans­
actional facts as the first claim such that the later claim
should have been litigated in the prior case.” Bowers Inv.
Co. v. United States, 695 F.3d 1380, 1384, (Fed. Cir. 2012)
(citing Ammex, Inc. v. United States, 334 F.3d 1052, 1055
(Fed. Cir. 2003)).
The Claims Court correctly determined that Dr. Bon­
dyopadhyay’s claims accusing the United States of infring­
ing the ’134 patent were barred by the doctrine of res
judicata. In Bondyopadhyay I, Dr. Bondyopadhyay ac­
cused the government of infringing the ’134 patent through
development of the Ball Advanced Technology Demonstra­
tion antenna. See Bondyopadhyay I at 116. As discussed
supra, the court found that the government’s antenna did
not infringe the ’134 patent literally or under the doctrine
of equivalents and granted the government’s motion for
summary judgment. See id. at 124. We affirmed. See Bon­
dyopadhyay I Appeal at 308. Regarding the patent in­
fringement claims, there was thus a final judgment on the
merits. Dr. Bondyopadhyay again here seeks under 28
U.S.C. § 1498 to assert the same ’134 patent against the
same party. But regardless how Dr. Bondyopadhyay char­
acterizes his claims, as unauthorized use of the patent or
depriving him of a constitutional right to make a living, his
claims boil down to patent infringement, claims that were
previously adjudicated against him, and he has failed to al­
lege sufficient additional facts to indicate otherwise.3 We

3 The July 30, 2002 letter, for example is not suffi­
cient. See Bondyopadhyay I, ECF 17, Ex. 2 (No. 14-147C);
see also Appellant’s Reply Br. 2, 12. The government as­
serted in the letter that “there is no infringement of the
’134 patent.” Bondyopadhyay I, ECF 17, Ex. 2 (No. 14147C). The government then provided an alternative

Case: 20-2091

8

Document: 43

Page: 8

Filed: 03/11/2021

BONDYOPADHYAY V. US

therefore affirm the finding of res judicata for the infringe­
ment claims.
We next consider the dismissal of Dr. Bondyopadhyay’s
takings claim. Dr. Bondyopadhyay argues that the doc­
trine of res judicata does not apply. See Appellant’s Br. 15.
He refers to a “Constitutional Order of exclusive right for
limited times” and requests that this court “restore” his
“Constitutional right to make a living.” See id. at 7, 11, 13,
16. The government responds that Dr. Bondyopadhyay al­
ready brought an identical takings claim and litigated it to
a final judgment, so the doctrine of res judicata resolves
this issue. See Appellee’s Br. 8, 11—12. Our precedent dic­
tates that “the Claims Court does not have jurisdiction to
hear takings claims based on alleged patent infringement
by the government.” Golden v. United States, 955 F.3d 981,
986-88 (Fed. Cir. 2020). “Those claims . . . are to be pur­
sued exclusively under 28 U.S.C. § 1498,” id. at 988, as pa­
tent infringement claims. As patent infringement, those
claims have previously been adjudicated and, as indicated
above, are now barred under res judicata.
Finally, to the extent that Dr. Bondyopadhyay chal­
lenges the Claims Court’s conclusion regarding his claims
based on alleged governmental fraud, we conclude that the
court lacked subject matter jurisdiction. “The plain lan­
guage of the Tucker Act excludes from the Court of Federal
Claims[s] jurisdiction claims sounding in tort.” Rick's
Mushroom Serv., Inc. v. United States, 521 F.3d 1338, 1343
(Fed. Cir. 2008); see U.S.C. § 1491(a)(1). “[F]raud as a

argument for non-infringement, stating that “even if the
’134 patent were found to be valid and infringed, we are of
the opinion that the performance under the five contracts
falls within the experimental use exception to patent in­
fringement.” Id. (emphasis added). Dr. Bondyopadhyay
failed to explain how the government’s repeated denial of
infringement in this letter constitutes an admission.

Case: 20-2091

Document: 43

Page: 9

Filed: 03/11/2021

9

BONDYOPADHYAY v. US

cause of action lies in tort.” Brown v. United States, 105
F.3d 621, 623 (Fed. Cir. 1997). Thus, the court properly
dismissed Dr. Bondyopadhyay’s fraud claims for lack of ju­
risdiction.
Because we conclude that the Claims Court did not err
in dismissing Dr. Bondyopadhyay’s claims that are at issue
on appeal for reasons of res judicata or for lack of jurisdic­
tion, we do not need to reach the issue of whether his claims
were filed outside of the applicable statute of limitations.
Finally, on January 28, 2021, Dr. Bondyopadhyay filed
a “motion for special leave” to introduce additional infor­
mation dated March 31, 2020. We normally do not consider
supplemental material submitted after briefing unless it
was previously unavailable. See, e.g., Landreth v. United
States, 797 Fed. App’x 521, 524 (Fed. Cir. 2020). We there­
fore deny this motion. On February 12, 2021, Dr. Bondyo­
padhyay filed a memorandum in lieu of oral argument.
Dr. Bondyopadhyay first restates arguments already pre­
sented in his briefs, which we carefully considered.
Dr. Bondyopadhyay’s also moves for settlement of his fi­
nancial claim, which is moot in view of our affirmance of
the Claims Court’s dismissal of his legal claims.
Conclusion
We have considered Dr. Bondyopadhyay’s remaining
arguments and conclude that they are without merit. For
the reasons discussed above, we affirm the judgment of the
Claims Court.
AFFIRMED

i.

In the United States Supreme Court
Petition for Writ of Certiorari
Probir Kumar Bondyopadhyay vs. United States of America

APPENDIX-B
Judicial response of the U.S. Court of Appeals for the Federal Circuit (CAFC)
under CAFC Rule 40 and Rule 35
[The 90 days window for filing this Petition for Writ of Certiorari
began on May 24,2021]

Case: 20-2091

Document: 46

Page: 1

Filed: 05/24/2021

NOTE: This order is nonprecedential.

Urutefci States Court of Appeals!
for tije Jfeberal Ctrcutt
PROBIR KUMAR BONDYOPADHYAY,
Plaintiff-Appellant
v.
i

UNITED STATES,
Defendant-Appellee
2020-2091
Appeal from the United States Court of Federal Claims
in No. l:19-cv-01831-MBH, Senior Judge Marian Blank
Horn.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
Before MOORE, Chief Judge*, NEWMAN, LOURIE, Dyk,
Prost**, O’Malley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.

* Chief Judge Kimberly A. Moore assumed the posi­
tion of Chief Judge on May 22, 2021.
** Circuit Judge Sharon Prost vacated the position of
Chief Judge on May 21, 2021.

Case: 20-2091

Document: 46

Page: 2

Filed: 05/24/2021

BONDYOPADHYAY V. US

2

ORDER
Probir Kumar Bondyopadhyay filed a combined peti­
tion for panel rehearing and rehearing en banc. The peti­
tion was referred to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on June 1, 2021.
For the Court
May 24. 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

&

In the United States Supreme Court
Petition for Writ of Certiorari
Probir Kumar Bondyopadhyay vs. United States of America

i
i

\

APPENDIX-C
The Opinion of the U.S. Court of Federal Claims (USCFC), that did NOT
address the Jeffersonian Claim of the U.S. Constitutional Creature (under Article 1
Section 8 Clause 8) thus, disobeying the order of its Creator. (June 23, 2020)
[The Jeffersonian Claim must have to be addressed EXCLUSIVELY under Title 28
USC Section 1498(a) - the Constitution Law.]

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 1 of 22

In tfje Mmteb States! Court of jfeberal Claims!
No. 19-1831C
Filed: June 23, 2020
*******************

PROBIR K. BONDYOPADHYAY,
Plaintiff,
v.
*

UNITED STATES,

Pro Se: Patent Infringement; Res
Judicata: Fifth Amendment Taking;
Fraud; Statute of Limitations.

*

Defendant.
* ******************

Probir K. Bondvopadhvav. pro se. Houston, TX.
Joshua I. Miller, Trial Attorney, Commercial Litigation Branch, Civil Division,
United States Department of Justice, Washington, D.C., for defendant. With him were
Gary L. Hausken, Director, Commercial Litigation Branch, and Joseph H. Hunt,
Assistant Attorney General, Civil Division.
OPINION
HORN. J.

FINDINGS OF FACT
Plaintiff’s complaint, filed on November 27, 2019, states that “[t]he Plaintiff, a U.S.
Citizen is the sole inventor and owner of the live U.S. Patent 6,292,134 entitled Geodesic
Sphere Phased Array Antenna System." (capitalization and emphasis in original) (internal
references omitted). Attached to plaintiffs complaint is only the first page of the ‘134
patent, which is dated September 18, 2001. The *134 patent lists plaintiff as the inventor.
The abstract of the ‘134 patent attached to the complaint states:
A geodesic sphere phased array antenna system, capable of scanning the
entire omni-directional communication space and comprising substantially
equilateral triangular planar subarrays of antenna elements arranged in a
geodesic sphere configuration. Icosahedron, one of the five regular solids
and truncated icosahedron, one of the fifteen semi-regular solids are the
preferred basis of the geodesic sphere phased array construction. The
entire communication space is considered as subdivided into a large
number of smaller cells and corresponding to each such cellular

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 2 of 22

communication space, a contiguous set of the subarrays is energized and
electronically phased to scan the cellular space. Another contiguous set of
subarrays is energized and electronically phased to scan another cellular
space in a similar manner resulting in limited angle scanning requirements
which permit the basic antenna elements to be connected in a cluster as a
unit building block to which transmit/receive signal distribution and
processing means are connected resulting in lower costs in deployment,
operation and maintenance.
Below the abstract, the following image is provided:
eo

w
5Z\

The first page of the '134 patent also states that the ‘134 patent contains "30 Claims, 14
Drawing Sheets.” (capitalization and emphasis in original).
Plaintiffs complaint, although at times difficult to follow, seems to allege that the
defendant infringed on his ownership of the ‘134 patent. Plaintiffs complaint states that
“[t]he violation of the Constitutional Order has occurred at the Small Business Innovation
Research (SBIR) Program of the U.S. Air Force administered by the Air Force Research
Laboratory (AFRL) under the central control of the Office of the Secretary of Defense
(OSD).” (capitalization and emphasis in original) (internal references omitted). Plaintiff
further alleges in his opposition to defendant’s motion to dismiss that there have been
"two distinctly separate violations: (i) acquisition of Innovation fraud under Title 15 USC
section 638(a) and 638 (b). [sic] and (ii) violation of Exclusive Right for Limited Times
of an Inventor, Owner, U.S. Citizen, (This Plaintiff).” (capitalization and emphasis in
original). With regard to plaintiffs alleged second violation, plaintiff states that the
“Exclusive Rights for Limited Times is a U.S. Constitutional Order that can NOT be
dismissed by any Article 3 U.S. Courts or Article 1 U.S. Courts, created under Section 8,
Clause 9.” (capitalization and emphasis in original).
Plaintiffs complaint further states:
The U.S. Air Force has acquired the innovation (that soon became the U.S.
Patent), in 1999 in clear violation of Title 15 USC Section 638a and 638b
2

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 3 of 22

to modernize the Air Force Satellite Control Network (AFSCN). The proof,
at the origin of this U.S. Air Force effort, is staring at the Honorable Federal
Court in Exhibit-3.
(capitalization and emphasis in original). Exhibit 3 of plaintiffs complaint is labeled: “TIME
LINE OF DEVELOPMENT WORKS ON THE MODERNIZATION OF AIR FORCE
SATTELITE CONTROL NETWORK (AFSCN) BY THE AIR FORCE RESEARCH
LABORATORY (AFRL)” (capitalization and emphasis in original), and contains an uncited
image depicting the United States Air Force’s projected acquisition timeline for the
construction of a Full Scale Geodesic Dome Phased Array Antenna, starting in 1999 and
completed by 2021.
Plaintiffs multiple filings with the court in the above-captioned case do not specify
a particular device of the AFRL which he alleges infringed on the ‘134 patent. The abovecaptioned case, Case No. 19-1831C, however, is one of many actions commenced by
plaintiff relating to the alleged infringement on the ‘134 patent, including an administrative
claim filed by plaintiff with the Judge Advocate General of the United States Air Force on
June 17, 2002, which was denied 44 days later, on July 30, 2002. Between 2003 and
2013, plaintiff filed at least six lawsuits relating to the ‘134 patent in the United States
District Court for the Southern District of Texas against contractors of the AFRL, as well
as against the United States. 1
1

In defendant’s motion to dismiss, the defendant notified the court of six lawsuits filed by
plaintiff between 2002 and 2013 which relate to the ’134 patent. Defendant states:
Plaintiff filed two lawsuits against the Government’s contractors, alleging
infringement of the ‘134 patent by those contractors:
•

•

Bondvopadhvav v. Custom Mfg. & Ena’q. Inc. Civ. No. 4:03cv-1-542 (3.D. Tex. Filed May 7, 2003) (dismissed July 30,
2003 for lack of personal jurisdiction;
Bondvopadhvav v. Alpha Omega Elec. LLC. Civ. No. 4:03-cv1578 (S.D. Tex. Filed May 9, 2003) (dismissed July 30, 2003
for lack of personal jurisdiction).

Plaintiff then filed four lawsuits against the Government in district court over
the next decade:
•

•

•

Bondvopadhvav v. U.S. Secretary of Defense et al.. Civ. No.
4:03-cv-3107 (S.D. Tex. Filed Aug. 6, 2003) (dismissed Dec.
5, 2003 for lack of subject matter jurisdiction and failure to
exhaust administrative remedies);
Bondvopadhvav v. U.S. Dept, of Defense et al.. Civ. No. 4:04cv-1990 (S.D. Tex. Filed May 18, 2004) (dismissed Aug. 6,
2004 for lack of subject matter jurisdiction);
Bondvopadhvav v. Commander. U.S. Air Force Research
3

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 4 of 22

In 2014, plaintiff filed a previous lawsuit against the United States in the United
States Court of Federal Claims, which was assigned to Judge Williams. During the course .
of the proceedings before Judge Williams, she issued three Opinions: a 2015 Opinion
granting the United States’ partial motion to dismiss, see Bondvopadhvav v. United
States. No. 14-147, 2015 WL 1311726 (Fed. Cl. 2015) (Bondvopadhvav \): a Claim
Construction Opinion in 2017, see Bondvopadhvav v. United States. 129 Fed. Cl. 793,
807 (Fed. Cl. 2017) (Bondvopadhvav II): and finally, a grant of defendant’s motion for
summary judgment in 2018, see Bondvopadhvav v. United States. 136 Fed. Cl. 114
(Bondvopadhvav MIL affd. 748 F. App’x 301 (Fed. Cir. 2018). Also in 2018, Judge
Williams' summary judgment decision in favor of defendant in Bondvopadhvav III was
affirmed by the United States Court of Appeals for the Federal Circuit. See
Bondvopadhvav v. United States. 748 F. App’x 301 (Fed. Cir. 2018) (Bondvopadhvav IV).
In Judge Williams’ decision granting defendant’s partial motion to dismiss in
Bondvopadhvav I. Judge Williams determined that some of plaintiffs claims were timebarred, and others “arose after expiration of the patent-in-suit." See Bondvopadhvav I.
2015 WL 1311726, at *1. Judge Williams’ decision in Bondvopadhvav I also dismissed
plaintiffs "claims for a Fifth Amendment taking, punitive damages, and costs arising out
of other litigation.” Jd. In Judge Williams’ Claim Construction Opinion in Bondvopadhvav
H, Judge Williams’ determined, after a claims construction hearing, that the '134 patent’s
use of the term “sphere” meant "greater than a hemisphere so as to provide the phased
array antenna hemispherical or wider coverage.” See Bondvopadhvav II. 129 Fed. Cl. at
807.
In granting summary judgment in favor of the United States in Bondvopadhvav III.
Judge Williams found that there was no infringement of the ‘134 patent by the United
States Air Force's device, referred to as the Ball Advanced Technology Demonstration
antenna (Ball ATD). See Bondvopadhvav III. 136 Fed. Cl. at 124. Judge Williams
described the Ball ATD as follows:
There is only one accused device at issue—the Ball Advanced Technology
Demonstration antenna. Since at least 2000, the Air Force Research
Laboratory was interested in the feasibility of a large antenna system called
the Geodesic Dome Phased Array Antenna. As part of this research, the Air

*

Laboratory (AFRU et al.. Civ. No. 4:12-cv-1658 (S.D. Tex.
filed June 1,2012); and
Bondvopadhvav v. U.S. Secretary of Defense et al.. Civ. No.
4:12-cv-1914 (S.D. Tex. Filed July 1, 2013) (dismissed Oct.
23, 2013 for lack of subject matter jurisdiction).

The court also notes that a Westlaw docket search for plaintiff, at
https://1.next.westlaw.com/Search/Results.html?query=adv%3A%20%22Probir%20K.%
20Bondyopadhyay%22&contentType=DOCKET&querySubmissionGuid=i0ad74013000
001729929984d66570adb&categoryPageUrl=Home%2FDockets&searchld=i0ad74013
000001729929984d66570adb&transitionType=ListViewType&contextData=(sc.Search)
(last visited June 23, 2020), reveals 15 cases filed by plaintiff in state and federal courts.
4

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 5 of 22

Force sponsored a number of small businesses to research and develop
technology required for building a full-scale Geodesic Dome Phased Array
Antenna. Subsequently, in November 2006, the Air Force awarded a
contract to Ball Aerospace & Technologies Corporation to develop a
Geodesic Dome Phased Array Antenna advanced technology
demonstration. Accordingly, Ball was “to develop, build, and demonstrate
the technological maturity, manufacturing readiness, and mission
effectiveness of a scalable sector" of a Geodesic Dome Phased Array
Antenna. The Ball Advanced Technology Demonstration antenna was the
result of this research and development.
The Ball Advanced Technology Demonstration antenna was designed in
2006-07, manufactured in 2007-08, and installed at Schriever Air Force
Base in Colorado in 2008-09, for testing and demonstration. The actual
demonstration of the Ball Advanced Technology Demonstration antenna
took place between February 2009 and May 2009.
The Ball Advanced Technology Demonstration antenna, which stood
roughly one to two stories high, was not completely constructed to constitute
a full sphere, and was only made up of six flat panels: a single central
pentagonal-shaped panel, surrounded by five outer hexagonal-shaped
panels. . . .
After the demonstration in 2009, the Ball Advanced Technology
Demonstration antenna was disassembled, with one part sent back to Ball
Aerospace for further testing, and after 2012, the Air Force Research
Laboratory did not engage in any activities to develop, manufacture, or test
a Geodesic Dome Phased Array Antenna.
Bondvopadhvav III. 136 Fed. Cl. at 118-20 (internal references omitted). Finding that the
Baii ATD did riot infringe upon the ‘134 patent under a literal interpretation, or under the
doctrine of equivalents, Judge Williams stated:
in sum, because the Ball Advanced Technology Demonstration antenna
was incapable of providing hemispheric or greater coverage, it did not
literally infringe the ‘134 patent. Under either test for infringement under the
doctrine of equivalents, the accused device cannot be found as infringing.
Accordingly, Defendant’s motion for summary judgment is GRANTED, and
Plaintiffs ‘Motion of the Infringement Phase’ is DENIED.
id. at 124 (capitalization and emphasis in original) (internal citation omitted).
As discussed above, plaintiff in the above-captioned case does not reference a
specific device which allegedly infringed on the ‘134 patent, although plaintiffs filings in
the above-captioned case mention the previous proceedings in this court. Plaintiffs
complaint states:
5

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 6 of 22

The constitutional financial claim has already been recorded with the U.S.
Court of Appeals for the Federal Circuit [Exhibit-6]. It is $100 per hour for
1500 hours per year for 11 years and 23 days, plus administrative and office
cost of $1000 per month for 60 months. The total amount of Constitutional
Financial Claim is $1,719,000.
(alteration, capitalization and emphasis in original). Attached as Exhibit 6 of plaintiffs
complaint in the above-captioned case is a portion of plaintiffs briefing before the United
States Court of Appeals for the Federal Circuit in Bondvopadhvav IV.2 Additionally, in
plaintiffs opposition to defendant’s motion to dismiss, plaintiff references the company
which constructed the Ball ATD, stating that“[t]he U.S. Airforce [sic] Research Laboratory
(AFRL) and the contractor Ball Aerospace Corporation have done sub-standard work.
This has already been pointed out during earlier Court proceedings (case 1:14-cv-00147MCW).”3

2 An excerpt from the appeal file in the United States Court of Appeals for the Federal
Circuit from Bondvopadhvav IV, which is attached at Exhibit 6 of plaintiffs complaint in
the above-captioned case, states:
9.0 THE PLAINTIFF INDEPENDENT INVENTOR’S FINANCIAL CLAIM
9.1
PART-A
based on exclusive rights for limited times (period
September 18, 2001 through October 11, 2012). The Plaintiff Appellant
independent Inventor was deprived of full time highly specialized Phased
Array Antenna Engineering work on his own invention.
9.2
This PART-A amount is $100 per hour for 1500 hours per year for
eleven (11) years and 23 days.
9.3
PART-B
Plaintiff Appellant’s Court cost (US Court of Federal
Claims, period February 2014 through April 2018). This includes clerical,
postal, copying and office costs at their minimum.
9.4

This PART-B amount is $1000 per month for 50 months.

10.
This Claim originated from a procurement fraud in the Small
Business Innovation Research (SBIR) program of the U.S. Air Force
managed by U.S. Air Force Research Laboratory (AFRL). Therefore, this
Constitutional Claim should be levied against the budget of the U.S. AFRL.
(capitalization and emphasis in original).
3 The court cannot find any such statement by Judge Williams or by the United States
Court of Appeals for the Federal Circuit which recognizes that the AFRL or Ball Aerospace
Corporation have “done sub-standard work.”
6

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 7 of 22

Plaintiffs complaint in the above-captioned case, once again, appears to allege a
, Fifth Amendment taking claim, stating that the “Defendant has taken the livelihood of this
Independent Inventor for a prolonged period of eleven years and 23 days and continues
to remain indifferent towards this Constitutional Order for a long time.” (capitalization and
emphasis in original). Plaintiffs filings with the court in the above-captioned case,
however, do not indicate the exact nature of an alleged event that occurred eleven years
and 23 days prior to plaintiffs filing of the above-captioned case.
Furthermore, plaintiff appears to allege fraudulent conduct by defendant. Exhibit 5
to plaintiffs complaint is labeled: “U.S. AIR FORCE AND THE DEPARTMENT OF
DEFENSE ‘HONORS’ FALSE ‘INVENTOR* OF THE GEODESIC SPHERE PHASED
ARRAY ANETENNA SYSTEM” (capitalization and emphasis in original). Exhibit 5
consists of the following article published on October 11, 2012 in “Air Force Print News
Today"4
AF nominates AFMC, AFSPC civilians for DOD award
By Gloria Kwizera
Air Force Personnel Center Public Affairs
10/11/2012 - JOINT BASE SAN ANTONIO-RANDOLPH, Texas -Two Air
Force civilians have been nominated for the Department of Defense
Distinguished Civilian Service Award.
Dr. Boris Tomasic, Air Force Research Laboratory, Air Force Materiel
Command, and Angelica M. Collazo, 92nd Information Operations
Squadron, Air Force Space Command, will represent the Air Force during
the 57th annual DOD competition, Air Force Personnel Center officials said.
The award is the highest honor given by the Secretary of Defense to career
civilian employees, said Staff Sgt. Leland T. Moseley, AFPC Special
Trophies and Awards section. It is presented annually to a small number of
DOD civilians whose careers reflect exceptional devotion to duty and
significant contributions of broad scope to DOD operational efficiency,
economy, or other improvements.
Tomasic invented and led the development of a revolutionary new antenna
- the Geodesic Dome Phased Array Antenna - for the Air Force satellite
control network. It provides tracking, telemetry and control of nearly all DOD
and National Aeronautics and Space Administration satellites, transitioning
the technology from initial concept to a field ready demonstration levels, He
also provided critical support to Air Combat Command on the Joint Threat

4 AF Nominates AFMC, AFSPC civilians for DOD award, available
https://www.af.mil/News/Article-Display/Article/110314/af-nominates-afmc-afspccivilians-for-dod-award (last visited June 19, 2020).
7

at,

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 8 of 22

Emitter, Increment Two Program, developing a system that mimics surfaceto-air missile system radars currently employed worldwide.
Tomasic’s contributions to antenna technology paved the way for Air Force,
Navy and Marine fighter pilots to fly against several emulator systems in
realistic combat training scenarios. Tomasic also contributed to practical
radar and communication system improvements that benefit all DOD forces,
including a field deployable phased array for ballistic missile defense,
assessment of the Army’s Comanche and Black Hawk helicopter antennas,
Space Based Radar system development for the Defense Advanced
Research Projects Agency and development of extremely high frequency
solid state antenna technology that resulted in improved aircraft connectivity
with the military strategic, tactical and relay satellite network..
Collazo has been at the forefront of cutting-edge cyber defense initiatives
critical to the projection of global military power and national defense. She
led the execution of more than $62 million to deploy the first of its kind global
information protection capability, initiating more than 200 major software
changes to a cyber incident handling database. That system is now the
baseline for U.S. Strategic Command’s Joint Computer Emergency
Response Team Database, used by Joint Chiefs of Staff decision-makers
to correlate critical cyber incidents across all services.
Collazo drove establishment of facilities that emulated DOD networks
enabling operators to conduct product and network security assessments.
As a result, her facility was selected as the first-ever site for critical testing
of enterprise-wide solutions to prevent, detect and counter unauthorized
users and actions on DOD networks. She directed 63 system and 25 base
cyber vulnerability assessments, sharing findings with numerous DOD
commanders, system program offices and other joint agencies, enabling
them to remediate thousands of critical system vulnerabilities.
Tomasic and Collazo are authorized to wear the Air Force Recognition
Lapel Pin, Moseley said.
(capitalization and emphasis in original). In plaintiffs opposition to defendant’s motion to
dismiss, plaintiff also states that defendant committed “acquisition of Innovation fraud
under Title 15 USC section 638(a) and 638 (b).” (capitalization in original).
Defendant moves to dismiss plaintiffs complaint in its entirety, on multiple grounds,
arguing that this court lacks subject-matter jurisdiction over plaintiffs claims, and that
plaintiff has failed to state a claim upon which relief can be granted, pursuant to Rules
12(b)(1) and 12(b)(6) (2019) of the Rules of the United States Court of Federal Claims
(RCFC). Defendant states that “it appears there are three potential causes of action in
the complaint: (1) unauthorized patent use by the Government; (2) a ‘taking’ by the
Government of the ‘134 patent; and (3) a fraud claim (or inventorship dispute) against the
8

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 9 of 22

Government.” (internal references and footnote omitted). Finally, defendant argues that
. all of plaintiffs claims are barred by the statute of limitations. Regarding the alleged
unauthorized patent use, defendant argues that “[although the complaint does not
identify any particular accused device, the exhibits appended to Plaintiffs complaint here
and in Bondvopadhvav I make clear that Plaintiff accuses the exacf same device of
infringing the exact same patent” in both suits, (capitalization and emphasis in original).
Defendant argues that “both the patent and taking claims have previously been
adjudicated against Plaintiff, such that these causes of action fail on the grounds of res
judicata.” Defendant argues that “neither the patent nor the taking claims can be plausibly
pled because the ‘134 patent has been construed in a manner that prohibits a finding of
infringement or taking by the Government’s activities.” Defendant also argues that the
court “lacks any semblance of subject-matter jurisdiction over Plaintiffs taking and fraud
claims.”
DISCUSSION
The court recognizes that plaintiff is proceeding pro se. When determining whether
a complaint filed by a pro se plaintiff is sufficient to invoke review by a court, a pro se
plaintiff is entitled to a more liberal construction of the pro se plaintiffs pleadings. See
Haines v. Kerner. 404 U.S. 519, 520-21 (requiring that allegations contained in a pro se
complaint be held to “less stringent standards than formal pleadings drafted by lawyers”),
reh’g denied. 405 U.S. 948 (1972); see also Erickson v. Pardus. 551 U.S. 89, 94 (2007);
Hughes v. Rowe. 449 U.S. 5, 9-10 (1980); Estelle v. Gamble. 429 U.S. 97, 106 (1976),
reh’g denied. 429 U.S. 1066 (1977); Matthews v. United States. 750 F.3d 1320, 1322
(Fed. Cir. 2014); Diamond v. United States. 115 Fed. Cl. 516, 524 (2014), aff^, 603 F.
App’x 947 (Fed. Cir.), cert, denied. 575 U.S. 985 (2015). However, "there is no ‘duty [on
the part] of the trial court... to create a claim which [plaintiff] has not spelled out in his
[or her] pleading ...Lengen v. United States. 100 Fed. Cl. 317,328 (2011) (alterations
in original) (quoting Scooin v. United States. 33 Fed. Cl. 285, 293 (1995) (quoting Clark
v. Nat’l Travelers Life Ins. Co.. 518 F.2d 1167, 1169 (6th Cir. 1975))); see also Bussie v.
United States. 96 Fed. Cl. 89, 94, affd. 443 F. App’x 542 (Fed. Cir. 2011); Minehan v.
United States. 75 Fed. Cl. 249, 253 (2007). “While a pro se plaintiff is held to a less
stringent standard than that of a plaintiff represented by an attorney, the pro se plaintiff,
nevertheless, bears the burden of establishing the Court’s jurisdiction by a preponderance
of the evidence." Riles v. United States. 93 Fed. Cl. 163, 165 (2010) (citing Hughes v.
Rowe. 449 U.S. at 9; and Taylor v. United States. 303 F.3d 1357, 1359 (Fed. Cir.), reh’g
and reh’g en banc denied (Fed. Cir. 2002)); see also Pauly v. United States. 142 Fed. Cl.
157 (2019); Golden v. United States. 129 Fed. Cl. 630, 637 (2016); Shelkofskv v. United
States. 119 Fed. Cl. 133, 139 (2014) ("[W]hile the court may excuse ambiguities in a pro
se plaintiffs complaint, the court 'does not excuse [a complaint’s] failures.’” (quoting
Henke v. United States. 60 F.3d 795, 799 (Fed. Cir. 1995))); Harris v. United States. 113
Fed. Cl. 290, 292 (2013) (“Although plaintiffs pleadings are held to a less stringent
standard, such leniency ‘with respect to mere formalities does not relieve the burden to
meet jurisdictional requirements.’” (quoting Minehan v. United States. 75 Fed. Cl. at 253)).

9

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 10 of 22

“Determination of jurisdiction starts with the complaint, which must be welt-pleaded
in that it must state the necessary elements of the plaintiffs claim, independent of any .
defense that may be interposed.” Holley v. United States. 124 F.3d 1462,1465 (Fed. Cir.)
(citing Franchise Tax Bd. v. Constr. Laborers Vacation Trust. 463 U.S. 1 (1983)), reh’g
denied (Fed. Cir. 19971: see also Klamath Tribe Claims Comm, v. United States. 97 Fed.
Cl. 203,208 (2011); Gonzalez-McCaullev Inv. Grp.. Inc, v. United States. 93 Fed. Cl. 710,
713 (2010). A plaintiff need only state in the complaint “a short and plain statement of the
grounds for the court’s jurisdiction,” and “a short and plain statement of the claim showing
that the pleader is entitled to relief.” RCFC 8(a)(1), (2); Fed. R. Civ. P. 8(a)(1), (2) (2019);
see also Ashcroft v. Iqbal. 556 U.S. at 677-78 (citing Bell Atl. Corn, v. Twomblv. 550 U.S.
at 555-57, 570). To properly state a claim for relief, “[cjonclusory allegations of law and
unwarranted inferences of fact do not suffice to support a claim.” Bradley v. Chiron Corp..
136 F.3d 1317,1322 (Fed. Cir. 1998); see also Am. Bankers Ass’n v. United States. 932
F.3d 1375, 1380 (Fed. Cir. 2019) (“To avoid dismissal under RCFC 12(b)(6), a plaintiff
‘must allege facts “plausibly suggesting (not merely consistent with)” a showing of
entitlement to relief.’" (quoting Acceptance Ins. Cos.. Inc, v. United States. 583 F.3d 849,
&53 (Fed. Cir. 2009) (quoting Bell Atl. Corp. v. Twomblv. 550 U.S. at 557))). McZeal v.
Sprint Nextel Corp.. 501 F.3d 1354,1363 n.9 (Fed. Cir. 2007) (Dyk, J., concurring in part,
dissenting in part) (quoting C. Wright and A. Miller, Federal Practice and Procedure
§ 1286 (3d ed. 2004)); Briscoe v. LaHue. 663F.2d 713, 723 (7th Cir. 1981) ("[Cjonclusory
allegations unsupported by any factual assertions will not withstand a motion to dismiss.”),
affd, 460 U.S. 325 (1983). “A plaintiffs factual allegations must ‘raise a right to relief
above the speculative level’ and cross 'the line from conceivable to plausible.’” Three S
Consulting v. United States. 104 Fed. Cl. 510, 523 (2012) (quoting Bell Atl. Corp. v.
Twomblv. 550 U.S. at 555), affd, 562 F. App'x 964 (Fed. Cir.), reh£ denied (Fed. Cir.
2014). As stated in Ashcroft v. Iqbal, “[a] pleading that offers ‘labels and conclusions’ or
'a formulaic recitation of the elements of a cause of action will not do.’ 550 U.S. at 555.
Nor does a complaint suffice if it tenders ‘naked assertion[s]’ devoid of ‘further factual
enhancement.’” Ashcroft v. Iqbal. 556 U.S. at 678 (quoting Bell Atl. Corp. v. Twomblv.
550 U.S. at 555).
The United States has waived sovereign immunity over patent infringement claims
against the federal government and its contractors, and has provided the United States
Court of Federal Claims with jurisdiction to hear such claims, under 28 U.S.C. § 1498(a).
Section 1498(a) states, in relevant part:
Whenever an invention described in and covered by a patent of the United
States is used or manufactured by or for the United States without license
of the owner thereof or lawful right to use or manufacture the same, the
owner's remedy shall be by action against the United States in the United
States Court of Federal Claims for the recovery of his reasonable and entire
compensation for such use and manufacture....
For the purposes of this section, the use or manufacture of an invention
described in and covered by a patent of the United States by a contractor,
a subcontractor, or any person, firm, or corporation for the Government and
10

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 11 of 22

with the authorization or consent of the Government, shall be construed as
use or manufacture for the United States.
28 U.S.C. § 1498(a) (2018); see also Golden v. United States. 955 F.3d 981, 986 (Fed.
Cir. 2020) (“28 U.S.C. § 1498(a) permits suits against the United States for its
unauthorized use of a patented invention.”); ZoitekCorp. v. United States. 672 F.3d 1309,
1312 (Fed. Cir. 2012).
Defendant in the above-captioned case asserts that plaintiffs patent claims have
previously been decided in this court, in favor of the United States, by Judge Williams’
decisions, on the partial motion to dismiss, Bondvopadhvav I. the claims construction,
Bondvopadhvav II. and the motion for summary judgment, Bondvopadhvav III. The United
States Court of Appeals for the Federal Circuit affirmed the lower court’s claim
construction and finding that the Air Force’s Ball ATD did not infringe on the ‘134 patent.
See generally Bondvopadhvav IV. 748 F. App’x at 308. Defendant argues that the
doctrine of res judicata, and more specifically, the doctrine of claim preclusion, bars
plaintiff from bringing his claim of patent infringement again in the above-captioned case.
The doctrine of res judicata “includes the two related concepts of claim preclusion
and issue preclusion.” Nasalok Coating Corp. v. Nvlok Coro.. 522 F.3d 1320,1323 (Fed.
Cir.), reh’g and reh’g en banc denied (Fed. Cir. 2008); see also Faust v. United States.
101 F.3d 675, 677 (Fed. Cir.). reh’g denied (Fed. Cir.), cert, denied. 520 U.S. 1200 (1997)
(u[W]e note that the term res judicata has been used narrowly to denote ‘claim preclusion’
and more generally to denote either ‘claim preclusion’ or ‘issue preclusion.’” (quoting
Foster v. Hallco Mfg. Co.. 947 F.2d 469, 478 (Fed. Cir. 1991))). The United States
Supreme Court has stated:
Under the doctrine of res judicata, a judgment on the merits in a prior suit
bars a second suit involving the same parties or their privies based on the
same cause of action. Under the doctrine of collateral estoppel, on the other
hand, the second action is upon a different cause of action and the judgment
in the prior suit precludes relitigation of issues actually litigated and
necessary to the outcome of the first action.
Parklane Hosiery Co.. Inc, v. Shore. 439 U.S. 322, 326 n.5 (1979).
In a recent case, the United States Court of Appeals for the Federal Circuit
described the difference between claim and issue preclusion as follows:
“The doctrine of res judicata involves the related concepts of claim
preclusion and issue preclusion.” Phillips/Mav Coro, v. United States. 524
F.3d 1264, 1267 (Fed. Cir. 2008). “Issue preclusion operates only as to
issues actually litigated, whereas claim preclusion may operate between the
parties simply by virtue of the final judgment.” Young Enon’rs. Inc, v. U.S.
Int'l Trade Comm’n. 721 F.2d 1305, 1314 (Fed. Cir. 1983).

11

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 12 of 22

First Morta. Corn, v. United States. Case No. 19-1798, 2020 WL 3108286, at *4 (Fed. Cir.
June 12, 2020) (ellipses in original).
Regarding claim preclusion, the Federal Circuit in First Mortgage further stated:
Claim preclusion “foreclose[es] any litigation of matters that... should have
been advanced in an earlier suit.” Phillips/Mav Corp.. 524 F.3d at 1267
(internal quotation marks and citation omitted). “A final judgment on the
merits of an action precludes the parties or their privies from relitigating
issued that were or could have been raised in that action.” Federated Dep’t
Stores. Inc, v. Moitie. 452 U.S. 394, 398, 101 S. Ct. 2424, 69 L. Ed.2d 103
(1981) (citing Commissioner v. Sunnen. 333 U.S. 591, 597, 68 S. Ct. 715,
92 L. Ed. 898 (1948) and Cromwell v. Ctv. Of Sac. 94 U.S. 351,352-53,24
L. Ed. 195(1877)).
First Morta. Corp. v. United States. 2020 WL 3108286, at *4 (alteration and ellipses in
original); see also Hallco Mfg. Co.. Inc, v. Foster. 256 F.3d 1290, 1294 (Fed. Cir. 2001)
(“The general concept of claim preclusion is that when a final judgment is rendered on
the merits, another action may not be maintained between the parties on the same
‘claim.’” (citing Restatement (Second) of Judgments §§ 18-19)).
“Generally, claim preclusion applies where: ‘(1) the parties are identical or in privity;
(2) the first suit proceeded to a final judgment on the merits; and (3) the second claim is
based on the same set of transactional facts as the first.’” First Morto. Corp. v. United
States. 2020 WL 3108286, at *4 (quoting Ammex. Inc, v. United States. 334 F.3d 1052,
1055 (Fed. Cir. 2003) (citing Parklane Hosiery Co. v. Shore. 439 U.S. at 326 n.5)). A
Judge of the United States Court of Federal Claims has stated:
[Cjlaim preclusion applies when there is (i) “a judgment on the merits in a
prior suit;” (ii) “a second suit involving the same parties or their privies;” and
(iii) the second suit is “based on the same cause of action.” Parklane
Hosiery. 439 U.S. at 326 n.5, 99 S. Ct. 645; see also Gilligf v. Nike. Inc.l.
602 F.3d at 1361 [(Fed. Cir. 2010)]; Jet. Inc, v. Sewage Aeration Svs.. 223
F.3d 1360, 1362 (Fed. Cir. 2000); Strategic Hous. Finance Corp. of Travis
Ctv. v. United States. 87 Fed. Cl. 183, 192 (2009).
Aviation Software. Inc, v. United States. 101 Fed. Cl. 656, 662-63 (2011). Furthermore,
for claim preclusion to apply, “a litigant must have a 'full and fair opportunity’ to litigate its
case.” jd. at 663 (quoting Povner v. Murray. 508 U.S. 931,933 (1993)); see also Kremer
v. Chemical Const. Corp.. 456 U.S. 461,481 n.22 (1982); Pactiv Corp. v. Dow Chemical
Co.. 449 F.3d 1227, 1233 (Fed. Cir. 2006).
The related doctrine of issue preclusion, also known as collateral estoppel,
precludes a party from re-litigating an issue that was “litigated and resolved in a valid
court determination essential to the prior judgment.” New Hampshire v. Maine. 532 U.S.
742, 748-49, reh’q denied. 533 U.S. 968 (2001). “Under the judicially-developed doctrine

12

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 13 of 22

of collateral estoppel, once a court has decided an issue of fact or law necessary to its
* judgment, that decision is conclusive in a subsequent suit based on a different cause of
action involving a party to the prior litigation." United States v. Mendoza. 464 U.S. 154,
158 (1984); see also Allen v. McCurrv. 449 U.S. 90, 94 (1980) (“Under collateral estoppel,
once a court has decided an issue of fact or law necessary to its judgment, that decision
may preclude relitigation of the issue in a suit on a different cause of action involving a
party to the first case.”). ‘When an issue of ultimate fact has once been determined by a
valid and final judgment, that issue cannot again be litigated between the same parties in
any future lawsuit.” Ashe v. Swenson. 397 U.S. 436, 443 (1970). The United States
Supreme Court has explained that issue preclusion guards against “the expense and
vexation attending multiple lawsuits, conserves judicial resources, and fosters reliance on
judicial action by minimizing the possibility of inconsistent decisions." Montana v. United
States. 440 U.S. 147, 153-54 (1979) (footnote omitted). The Supreme Court also stated:
Issue preclusion bars successive litigation of “an issue of fact or law” that
“is actually litigated and determined by a valid and final judgment, and . . .
is essential to the judgment.” Restatement (Second) of Judgments § 27
(1980) (hereinafter Restatement). If a judgment does not depend on a given
determination, relitigation of that determination is not precluded. Id, § 27,
Comment h.
Bobby v. Bies. 556 U.S. 825, 834 (2009); see also United States v. Mendoza. 464 U.S.
at 158 (“Collateral estoppel, like the related doctrine of res judicata, serves to ‘relieve
parties of the cost and vexation of multiple law-suits, conserve judicial resources, and, by
preventing inconsistent decisions, encourage reliance on adjudication.”' (quoting Allen v.
McCurrv. 449 U.S. at 94)).
The United States Court of Appeals for the Federal Circuit has set out four
guidelines for determining whether issue preclusion is appropriate:
Issue preclusion bars a cause of action when four conditions are met: “(1)
the issue is identical to one decided in the first action; (2) the issue was
actually litigated in the first action; (3) resolution of the issue was essential
to a final judgment in the first action; and (4) the plaintiff had a full and fair
opportunity to litigate the issue in the first action.”
Laguna Hermosa Corn, v. United States. 671 F.3d 1284, 1288 (Fed. Cir. 2012) (quoting
In re Freeman. 30 F.3d 1459, 1465 (Fed. Cir. 1994); see also Biafora v. United States.
773 F.3d 1326, 1333 (Fed. Cir. 2014): Ga. Power Co. v. United States. 143 Fed. Cl. 743,
748 (2019).
Although plaintiff in the above-captioned case does not expressly mention any
device by name, including the AFRL’s Ball ATD, as having allegedly infringed upon the
‘134 patent, plaintiff’s complaint appears to revolve around the manufacturing of the Ball
ATD, the device which was at the center of the dispute before Judge Williams in
Bondvopadhvav I through Bondvopadhvav ill, and the United States Court of Appeals for

13

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 14 of 22

the Federal Circuit in Bondvopadhvav IV. As discussed above, attached to plaintiffs
complaint in the current case before the court is the following acquisition timeline:

Acquisition Timeline

1^—bimm — — — ■■■■I
FY
10

FY FY
11 j 12

Concept & Arch
Development

Technology Development

Technology & Subarry
Development

5

FY
13

EMD

m
Production &
Deployment

6

■2
■jiii)

TTPE

7
Full-Scale,

Prototype
AFRL SBIR
Effort

TRL

Phased Array ■
for TT&C (PAT) 1
demo
I
Full Scale
GDPAA

ATD

The above acquisition timeline was also filed by plaintiff in Judge Williams’ case, and
appears to comport with Judge Williams’ description of the Ball ATD. In Bondvopadhvav
IN, Judge Williams described the Ball ATD as follows:
There is only one accused device at issue—the Ball Advanced Technology
Demonstration antenna. Since at least 2000, the Air Force Research
Laboratory was interested in the feasibility of a large antenna system called
the Geodesic Dome Phased Array Antenna. As part of this research, the Air
Force sponsored a number of small businesses to research and develop
technology required for building a full-scale Geodesic Dome Phased Array
Antenna. Subsequently, in November 2006, the Air Force awarded a
contract to Ball Aerospace & Technologies Corporation to develop a
Geodesic Dome Phased Array Antenna advanced technology
demonstration. Accordingly, Ball was “to develop, build, and demonstrate
the technological maturity, manufacturing readiness, and mission
effectiveness of a scalable sector” of a Geodesic Dome Phased Array
Antenna. The Ball Advanced Technology Demonstration antenna was the
result of this research and development.
The Ball Advanced Technology Demonstration antenna was designed in
2006-07, manufactured in 2007-08, and installed at Schriever Air Force
Base in Colorado in 2008-09, for testing and demonstration. The actual

14

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 15 of 22

demonstration of the Ball Advanced Technology Demonstration antenna
took place between February 2009 and May 2009.

The Ball Advanced Technology Demonstration antenna, which stood
roughly one to two stories high, was not completely constructed to constitute
a full sphere, and was only made up of six flat panels: a single central
pentagonal-shaped panel, surrounded by five outer hexagonal-shaped
panels. The figure below depicts the Ball Advanced Technology
Demonstration antenna constructed by the Air Force:

As explained by Dr. Haupt, Defendant’s expert, this figure shows the six
panels that constitute the Ball Advanced Technology Demonstration
antenna array. In Dr. Haupt’s opinion, and, as is obvious from the figure,
these six panels are a very small fraction of the array panels of a full
Geodesic Dome Phased Array Antenna. The Ball Advanced Technology
Demonstration antenna is not a “sphere” as defined by the Court in its claim
construction opinion because it is not greater than a hemisphere, as it only
had six panels.
The picture of the Ball Advanced Technology Demonstration antenna
appended to the Complaint shows these six panels as follows:

15

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 16 of 22

After the demonstration in 2009, the Ball Advanced Technology
Demonstration antenna was disassembled, with one part sent back to Ball
Aerospace for further testing, and after 2012, the Air Force Research
Laboratory did not engage in any activities to develop, manufacture, or test
a Geodesic Dome Phased Array Antenna.
Bondvopadhvav III. 136 Fed. Cl. at 118-120 (footnotes and internal references omitted).
As noted above, plaintiff’s filings in the current case do not mention the Ball ATD
by name, nor does plaintiff attach to his current filings any of the images, reproduced
above, from Judge Williams’ case, except for the acquisition timeline. Plaintiff’s filings in
the current case, however, do not reference any other device for the court to consider.
Moreover, plaintiff does not refute defendant’s statements in its motion to dismiss
currently before the court, that “[t]he device made pursuant to this Acquisition Timeline is
the Ball Advanced Technology Demonstration antenna,” or that “the exhibits appended
to Plaintiffs complaint and in Bondvopadhvav I make clear that Plaintiff accuses the exact
16

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 17 of 22

same device of infringing the exact same patent,” (capitalization and emphasis in
original). Plaintiff’s complaint also makes numerous references to his previous case in
this court, although plaintiff appears to incorrectly conclude that the previous decisions by
Judge Williams and the United States Court of Appeals for the Federal Circuit cut in
plaintiffs favor because Judge Williams and the Federal Circuit recognized that plaintiff
owns the ‘134 patent. That plaintiff appears to be the owner of the ‘134 patent, however,
does not satisfy the inquiry of whether any device used by the United States infringed on
plaintiffs ‘134 patent.
As discussed above, in Bondvopadhvav III. Judge Williams found that the Ball ATD
did not infringe upon the ‘134 patent, see Bondvopadhvav III. 136 Fed. Cl. at 124, and in
Bondvopadhvav IV. the United States Court of Appeals for the Federal Circuit upheld her
decision. See Bondvopadhvav IV. 748 F. App’x at 308. Moreover, this was the central
dispute in the plaintiffs previous case in this court, during part of which Judge Williams
conducted a claim construction hearing and issued a claims construction opinion in 2017.
See Bondvopadhvav II. 129 Fed. Cl. 793. Plaintiff has had “full and fair opportunity to
litigate the issue,” and did litigate the issue now presented in the current case, in the
previous action before Judge Williams. See Povnerv. Murray. 508 U.S. at 933. Therefore,
plaintiffs claim that the Ball ATD infringed on the ‘134 patent is barred by the doctrine of
res judicata.
Defendant next argues that, to the extent plaintiff states a Fifth Amendment taking
claim, this court lacks subject-matter jurisdiction to hear the claim, also under the doctrine
of res judicata. Defendant alternatively argues that the court lacks jurisdiction over any
patent infringement-based taking claims, even if res judicata does not apply. Plaintiff
failed to address, in the many filings plaintiff submitted in the current case, defendant’s
arguments, raised in its motion to dismiss, the issue of whether plaintiffs Fifth
Amendment taking claim is properly before the court.
The United States Supreme Court has stated that “[t]he principles of res judicata
apply to questions of jurisdiction as well as to other issues.” Am. Sur. Co. v. Baldwin. 287
U.S. 156,166 (1932). Judges of the United States Court of Appeals for the Federal Circuit
and the United States Court of Federal Claims also have explained that the principles of
res judicata may apply to questions of jurisdiction. See Amgen Inc, v. United States Int’l
Trade Comm’n. 902 F.2d 1532, 1536 n.5 (Fed. Cir. 1990) (“Dismissals for lack of
jurisdiction may be given res judicata effect as to the jurisdictional issue.”);5 Waastaff v.
United States, 105 Fed. Cl. 99, 110 (2012) (“As for Plaintiffs claims of violations of the
Fair Debt Collection Practices Act, both a federal district court and a federal appellate
court have ruled that the United States has not waived its sovereign immunity with respect
to such claims. Accordingly, this jurisdictional issue has already been resolved, and the

5 The court notes that in an unpublished opinion, the United States Court of Appeals for
the Federal Circuit stated that “[i]t is well settled that the principles of res judicata apply
to questions of jurisdiction as well as to other issues.” Citizens Elecs. Co.. Ltd, v. OSRAM
GmBH. 225 F. App’x 890, 893 (Fed. Cir. 2007) (citing Am. Sur. Co. v. Baldwin. 287 U.S.
at 166).

17

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 18 of 22

court is barred from adjudicating these claims under principles of res judicata." (citing
Waastaff v. Dep’t of Educ.. Case No. 5:05-cv-01245, at 19-22 (W.D.Tex. Feb. 15, 2007;
Waastaff v. Dep’t. of Educ.. 509 F.3d 661,663-64 (5th Cir. 2007), cert, denied. 554 U.S.
904, reh’q denied. 554 U.S. 942 (2008)): but see Goad v. United States. 46 Fed. Cl. 395,
398, appeal dismissed. 243 F.3d 553 (Fed. Cir.), cert, denied. 531 U.S. 1015 (2000) ("[l]f
the second-filed claim contains new information which cures the jurisdictional defect fatal
to the first-filed suit, then the second-filed suit presents a different jurisdictional issue and
res judicata does not apply.”). Judges of the United States Court of Federal Claims also
have indicated that, under the related doctrine of issue preclusion, or collateral estoppel,
this court may be precluded from exercising subject-matter jurisdiction in an ongoing
action when the same action, based on the same facts, has been previously dismissed
on jurisdictional grounds and the jurisdictional flaw that necessitated dismissal on the first
suit has not been cured. See Lowe v. United States. 79 Fed. Cl. at 229 ("It is beyond cavil
that the issue of collateral estoppel goes to subject matter jurisdiction, and may be
pleaded as a 12(b)(1) motion.” (citing Schwasinaer v. United States. 49 F. App’x 888 (Fed.
Cir. 2002) (affirming lower court’s dismissal of a plaintiffs third complaint on the basis of
collateral estoppel because plaintiffs two prior complaints were identical to the third
complaint and had been dismissed for lack of subject matter jurisdiction)).
As discussed above, Judge Williams’ first decision in plaintiffs patent infringement
case previously filed in this court was the 2015 grant of defendant’s partial motion to
dismiss in Bondvopadhvav I. which dismissed plaintiffs Fifth Amendment taking claim on
the ground that the court lacked subject-matter jurisdiction. See Bondvopadhvav I. 2015
WL 1311726, at *6 (‘To the extent Plaintiffs claim of patent infringement is brought as a
Fifth Amendment taking, the claim is dismissed.”). Judge Williams explained:
Defendant correctly asserts that a claim for patent infringement against the
Government is considered under § 1498 rather than the Fifth Amendment.
Demodulationf. Inc, v. United States! 118 Fed. Cl. [69,] at 73 [(2014)]
(“Count IV is dismissed to the extent that Plaintiff attempts to fashion its
patent infringement claim as a Fifth Amendment takings claim. A patent
infringement claim is a tort claim and therefore is excluded by the Tucker
Act’s prohibition on ‘cases sounding in tort.’ The only way to bring a patent
infringement claim in this Court is to assert the claim under 28 U.S.C.
§ 1498(a) . . . .”); Keehn v. United States. 110 Fed. Cl. 306, 355 (2013)
("[P]laintiff s Fifth Amendment takings theory is without merit. It is 28 U.S.C.
§ 1498(a), not the Fifth Amendment to the United States Constitution, that
provides the waiver of sovereign immunity that enables a plaintiff to file suit
against the government for patent infringement.”). To the extent Plaintiffs
claim of patent infringement is brought as a Fifth Amendment taking, the
claim is dismissed.
Bondvopadhvav I. 2015 WL 1311726, at *6 (final alteration in original). As addressed by
Judge Williams, the case law is clear that a patent infringement claim such as plaintiffs
is not to be treated as a Fifth Amendment taking claim. See Golden v. United States. 955
F.3d at 986 (“We first consider the dismissal of Golden’s patent infringement-based

18

.

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 19 of 22

takings claims. The Claims Court held that it did not have jurisdiction over these claims
, pursuant to 28 U.S.C. § 1491, because patent infringement claims against the
government are to be pursued exclusively under 28 U.S.C. § 1498. We agree.” (internal
reference omitted)). Therefore, to the extent plaintiff alleges a taking claim based on the
alleged infringement of the ‘134 patent, this court lacks jurisdiction to hear such a claim
as a Fifth Amendment taking claim.
Defendant also addresses a remaining claim by plaintiff, that a “possible reading
of Plaintiffs complaint is that Plaintiff believes that the Government has committed fraud
by identifying someone other than Plaintiff as inventor of what Plaintiff believes he
invented.” (emphasis in original). In Exhibit 5 of plaintiffs complaint, plaintiff attaches an
article published by the Air Force Personnel Center Public Affairs, on October 11,2012,
quoted above, regarding the nomination of two Air Force civilians for the “Department of
Defense Distinguished Civilian Service Award." The article states that one of the civilians
employed by the AFRL, Dr. Boris Tomasic, “invented and led the development of a
revolutionary new antenna - the Geodesic Dome Phased Array Antenna - for the Air Force
satellite control network.” To the extent that plaintiff alleges that the United States
committed a fraud, or made fraudulent statements in this exhibit, this court lacks subjectmatter to adjudicate the claim, as they are tort claims. The Tucker Act expressly excludes
tort claims, including those committed by federal officials, from the jurisdiction of the
United States Court of Federal Claims. See 28 U.S.C. § 1491(a) (“The United States
Court of Federal Claims shall have jurisdiction to render judgment upon any claim against
the United States founded either upon the Constitution, or any Act of Congress or any
regulation of an executive department, or upon any express or implied contract with the
United States, or for liquidated or unliquidated damages in cases not sounding in tort.”);
see also Keene Com, v. United States. 508 U.S. 200,214 (1993); Rick’s Mushroom Serv..
Inc, v. United States. 521 F.3d 1338, 1343 (Fed. Cir. 2008); Alves v. United States. 133
F.3d 1454, 1459 (Fed. Cir. 1998); Brown v. United States. 105 F.3d 621,623 (Fed. Cir.)
(“Because Brown and Darnell’s complaints for ‘fraudulent assessments]’ are grounded
upon fraud, which is a tort, the court lacks jurisdiction over those claims.”), reh’g denied
(Fed. Cir. 1997); Golden Pac. Bancorp v. United States. 15 F.3d 1066, 1070 n.8 (Fed.
Cir.), reh’g denied, en banc suggestion declined (Fed. Cir.), cert, denied. 513 U.S. 961
(1994); Rohland v. United States. 136 Fed. Cl. 55, 65-66 (2018) (“Claims of fraud,
conspiracy, harassment, breach of fiduciary duty, negligence, trespass, and false
imprisonment sound in tort.”); Hampel v. United States. 97 Fed. Cl. 235, 238 (2011);
Jumah v. United States. 90 Fed. Cl. 603,607 (2009) (“[l]t is well-established that the Court
of Federal Claims does not have jurisdiction over tort claims. Here, Mr. Jumah seeks
damages for l[n]eglect, [misrepresentation, [f]alse [i]mprisonment, [conspiracy,
[i]ntentional [i]nfliction of emotional [distress, [invasion of [privacy, [njegligence and
[trespass and [p]unitive [djamages.’ These are all claims sounding in tort.” (internal
citation omitted; all brackets in original)), affd. 385 F. App’x 987 (Fed. Cir. 2010);
Woodson v. United States. 89 Fed. Cl. 640, 650 (2009); Fullard v. United States. 77 Fed.
Cl. 226,230 (2007) (“This court lacks jurisdiction over plaintiffs conspiracy claim because
the Tucker Act specifically states that the Court of Federal Claims does not have
jurisdiction over claims ‘sounding in tort.’”); Edelmann v. United States. 76 Fed. Cl. 376,
379-80 (2007) ("This Court ‘does not have jurisdiction over claims that defendant

19

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 20 of 22

engaged in negligent, fraudulent, or other wrongful conduct when discharging its official
duties’ . . . [and] Plaintiffs’ claims of fraud, misrepresentation, slander, perjury,
harassment, intimidation, coercion, theft, and defamation, and their claims that the
Government deprived Ms. Edelmann of her right to a fair trial, are tort claims.” (quoting
Cottrell v. United States. 42 Fed. Cl. 144, 149 (1998)); McCullough v. United States. 76
Fed. Cl. 1, 3 (2006). appeal dismissed. 236 F. App’x 615 (Fed. Cir.), reh’q denied (Fed.
Cir.), cert, denied. 552 U.S. 1050 (2007); Aaee v. United States. 72 Fed. Cl. 284, 290
(2006); Zhenaxina v. United States. 71 Fed. Cl. 732, 739, afFd. 204 F. App’x 885 (Fed.
Cir.). reh’q denied (Fed. Cir. 2006). Therefore, plaintiff’s allegations of fraudulent or false
conduct on the part of the defendant are claims which sound in tort, and, accordingly,
must be dismissed for lack of jurisdiction in this court.
Finally, defendant alternatively argues that all of plaintiff’s claims are barred by the
statute of limitations. Suits brought against the United States in the United States Court
of Federal Claims are generally subject to a six-year statute of limitations. According to
the statute at 28 U.S.C. § 2501 (2018):
Every claim of which the United States Court of Federal Claims has
jurisdiction shall be barred unless the petition thereon is filed within six years
after such claim first accrues. ... A petition on the claim of a person under
legal disability or beyond the seas at the time the claim accrues may be filed
within three years after the disability ceases.
]d. “The six-year statute of limitations set forth in section 2501 is a jurisdictional
requirement for a suit in the Court of Federal Claims.” John R. Sand & Gravel Co. v.
United States. 457 F.3d 1345, 1354 (Fed. Cir.), reh’q en banc denied (Fed. Cir. 2006),
aff'd. 552 U.S. 130 (2008).
For suits involving patent infringement against the United States, however, the time
limitation to file suit against the United States for patent infringement can be tolled up to
six years from the time an administrative claim is filed to when the administrative claim is
denied, pursuant to 35 U.S.C. § 286 (2018). The statute at 35 U.S.C. § 286 states:
Except as otherwise provided by law, no recovery shall be had for any
infringement committed more than six years prior to the filing of the
complaint or counterclaim for infringement in the action.
In the case of claims against the United States Government for use of a
patented invention, the period before bringing suit, up to six years, between
the date of receipt of a written claim for compensation by the department or
agency of the Government having authority to settle such claim, and the
date of mailing by the Government of a notice to the claimant that his claim
has been denied shall not be counted as part of the period referred to in the
preceding paragraph.
Id. Although the statute at 35 U.S.C. § 286 does not reference this court’s six-year statute
of limitations in 28 U.S.C. § 2501, judges of this court have found that “[t]he six-year
20

,

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 21 of 22

limitations period established by 28 U.S.C. § 2501 is modified by 35 U.S.C. § 286.”
Unitrac. LLC v. United States. 113 Fed. Cl. 156,164 (2013), affd, 589 F.App’x990 (Fed.
Cir. 2015) (citing Dow Chemical Co. v. United States. 32 Fed. Cl. 11, 20, afFd jn part.
rev’d in part on other grounds. 226 F.3d 1334 (Fed. Cir. 2004)); see also Filler v. United
States. Case No. 19-173, 2020 WL 2312244, at *6 (Fed. Cl. May 8, 2020) (“In limited
circumstances, the statute of limitations for claims of infringement against the United
States government may be tolled where the patentee files an administrative claim." (citing
35 U.S.C. § 286)); Ideal Innovations. Inc, v. United States. 139 Fed. Cl. 737, 743 (2018)
(“Section 286 allows for the tolling of the § 2501 limitations period for patent infringement
claims while a validly filed administrative claim is being brought.”).
A patent infringement claim against the United States accrues when the accused
device is “‘first available for use, and it is when the use occurs that a license is considered
to have been taken.”’ Unitrac. LLC v. United States. 113 Fed. Cl. at 160 (quoting Decca
Ltd, v. United States. 544 F.2d 1070, 1082, 210 Ct. Cl. 546, 567 (1980))): see also Filler
v. United States. 2020 WL 2312244, at *5; Flovd v. United States. 125 Fed. Cl. 183,189
(2016). Furthermore, “[a]lleged ongoing infringement does not extend or restart the
limitations period. Rather, once the device is available for use, the license is taken, the
patent owner’s cause of action accrues, and the patent owner has six years to bring its
case.” Ross-Himes Designs. Inc, v. United States. 139 Fed. Cl. 444, 459 (2018) (citing
Starobin v. United States. 662 F.2d 747, 749,229 Ct. Cl. 67, 70 (1982)): see also Filler v.
United States. 2020 WL 2312244, at *5.6 In Starobin. the United States Court of Claims,
the predecessor court to this court, stated:
[e]ach device, i.e., each individual member of the universe of infringing
devices ... can be taken only once in its lifetime, and if that taking occurs
prior to the six-year period which immediately precedes the filing of the
lawsuit in the Court of Claims, then recovery as to that particular device is
barred forever by 28 U.S.C. § 2501.
Starobin v. United States. 662 F.2d at 749-50 (footnote omitted).
As discussed above, plaintiffs patent infringement claim in the above-captioned
case fails under the doctrine of res judicata. But regardless, the statutes at 28 U.S.C.
§ 2501 and 35 U.S.C. § 286 provide that plaintiffs patent infringement claim was filed
outside of the applicable statute of limitations in which to file. Plaintiff in the abovecaptioned case filed an administrative claim with the Judge Advocate General of the
6 The court notes that, in an unpublished decision in 2017, the United States Court of
Appeals for the Federal Circuit stated that “the jurisdictional clock for a § 1498 action
begins to run when the government first uses the claimed invention without authorization
and that specific use is not considered continuous in nature for jurisdictional purposes.”
Sacchetti v. United States. 711 F. App’x 979 (Fed. Cir. 2017) (citing Starobin v. United
States. 662 F.2d at 750; and also citing Regent Jack Mfg. Co. v. United States. 337 F.2d
649, 651,167 Ct. Cl. 815, 817 (1964); Hvde v. United States. 336 F. App’x 996, 998 (Fed.
Cir. 2009); Bissell v. United States. 41 F. App’x 414, 416 (Fed. Cir. 2002)).
21

Case l:19-cv-01831-MBH Document 17 Filed 06/23/20 Page 22 of 22

United States Air Force on June 17, 2002, which was denied 44 days later, on July 30,
2002. In order for plaintiffs infringement claim to be timely in this court under 28 U.S.C.
§ 2501 and 38 U.S.C. § 286, plaintiff’s claim must have been filed within six years and 44
days from when plaintiffs claim accrued, which, as discussed above, occurs ‘"when the
accused [instrumentality] is first available for use.’” Flovd v. United States. 125 Fed. Cl.
at 189 (alteration in original) (quoting Unitrac, LLC v. United States. 113 Fed. Cl. at 160)).
Neither party in the above-captioned case states when, if ever, the Ball ATD was first
available for use. Judge Williams stated in Bondvopadhvav III, however, that “the actual
demonstration of the Ball Advanced Technology Demonstration antenna took place
between February 2009 and May 2009.” Bondvopadhvav III. 136 Fed. Cl. at 119. Even
taking the later, May 2009 date of demonstration of the Ball ATD as the time the Ball ATD
was first available for use, plaintiff would have had to file the current case within six years
and 44 days of May 2009, i.e., July 2015.
Judge Williams also stated in Bondvopadhvav III that “after 2012, the Air Force
Research Laboratory did not engage in any activities to develop, manufacture, or test a
Geodesic Dome Phased Array Antenna.” Bondvopadhvav III. 136 Fed. Cl. at 120. Even
if this court took the first day “after 2012,” i.e., January 1, 2013, as the date in which
plaintiffs claims accrued, which is later than any violation plaintiff alleges to have occurred
in this case, plaintiff would have had to file this case on or before February 14, 2019 in
order to be timely. Therefore, under any plausible formulation of the claims in plaintiffs
complaint, the current case, which was filed on November 27, 2019, was not filed within
the applicable statute of limitations pursuant to 28 U.S.C. § 2501 and 35 U.S.C. § 286.
CONCLUSION
Plaintiffs allegations in the above-captioned case are often confused and miss the
mark, even allowing plaintiff every benefit of interpretation, given plaintiffs ero se status.
Plaintiff failed to effectively or directly respond to a number of the dispositive legal issues
raised in defendant’s motion to dismiss, although plaintiff filed frequent, unresponsive
documents. Plaintiff instead opted, over and over again, to reiterate his assertion that he
is the owner of the ‘134 patent, without addressing whether infringement actually
occurred. Moreover, plaintiff did not offer any evidence or argument as to why plaintiffs
current case for patent infringement against the United States is not materially identical
to the patent infringement claims at issue in plaintiffs previous case in this court, or why
his current case is within the applicable statute of limitations. For all these reasons, as
discussed above, defendant’s motion to dismiss is GRANTED, and plaintiffs complaint is
DISMISSED, with prejudice. The Clerk shall enter JUDGMENT consistent with this
Opinion.
IT IS SO ORDERED.
s/Marian Blank Horn
MARIAN BLANK HORN
Judge

22

\

aT
r'

~• ,-

In the United States Supreme Court
Petition for Writ of Certiorari
Probir Kumar Bondyopadhyay vs. United States of America

i

APPENDIX-D
The U.S. District Court Order of October 23,2013 that established the facts for
Jeffersonian Claim of the Petitioner as a U.S. Constitutional Creature under
Article 1 Section 8 Clause 8 to be addressed EXCLUSIVELY under Title 28
USC Sectionl498(a) - the Constitution Law.]

i

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 1 of 9

■a

f

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
PROBIR BONDYOPADHYAY
Plaintiff,
v.

§
§
§
§

§

THE UNITED STATES
SECRETARY OF DEFENSE, et al.,

Civil Action No. H-l3-1914

§
§

§
§
§
§

Defendants,

ORDER
Pending before the Court is Defendants’ Motion to Dismiss for Lack of Subject
Matter Jurisdiction, or Alternatively for Failure to State a Claim (Document No. 7).
Having considered the motion, submissions, and applicable law, the Court finds that
the motion to dismiss should be granted.
I. BACKGROUND
On July 01, 2013, the plaintiff, Probir Kumar Bondyopadhyay (“Plaintiff’)
filed a civil complaint in this Court alleging that the defendants, Secretary of Defense
Charles Timothy Hagel (“Hagel”) and Under Secretary of Commerce for Intellectual
Property and Director of the United States Patent and Trademark Office, Teresa
Stanek Rea (“Rea”) (collectively, “Defendants”), violated Article I, Section 8, Clause
8 of the United States Constitution by making a false claim of ownership against
Plaintiff s invention. Plaintiff filed for Patent 6,292,134 on February 25,2000, as the

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 2 of 9

inventor of the Geodesic Sphere Phased Array Antenna System (“GSPAAS”). Rea
granted this patent to Plaintiff on September 18,2001. On October 11,2012, Hagel’s
office sent a letter identifying Dr. Boris Tomasic as the inventor of a “revolutionary”1
new invention, the GSPAAS.
In his complaint, Plaintiffalleges Hagel knew he was the inventor ofGSPAAS.
Plaintiff believes an employee of Hagel, Fredric Sinder, verified ownership of
Plaintiffs patent through an ex-parte patent reexamination request on June 4,2002.
Plaintiff lists a series of questions in the complaint he requires the defendants answer
regarding the invention of GSPAAS * and the reexamination request.
Defendants filed a motion to dismiss for lack of subject matter jurisdiction, or
alternatively, for failure to state a claim on August 9,2013. Defendants do not dispute
Plaintiffs ownership of GSPAAS, but request the Court dismiss his complaint.
Primarily, Defendants argue the Court lacks jurisdiction over the claim because
Defendants are protected by sovereign immunity. Even without sovereign immunity,
Defendants claim that Plaintiff lacks standing to bring the claim because he was not
injured by the inventor misidentification and Rea did not commit any offense because
her office only certified Plaintiff s patent. Defendants also challenge his standing on
redressability grounds, arguing that the answers to Plaintiffs questions, addressed to

Complaint, Document 1, dated June 1, 2013, Exhibit 1.
2

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 3 of 9

Defendants, are available through public information and Plaintiff already owns the
rights to GSPAAS. Finally, Defendants argue Plaintiffs claim should fail under
Federal Rule of Civil Procedure 12(b)(6) because Plaintiffs “false claim” complaint
lacks a valid legal issue.
Plaintiffhas filed numerous responses to the motion to dismiss.2 In the first and
third response, Plaintiff requests for the Defendants to respond to the series of
questions included in the complaint. In the second response, Plaintiff states that the
United States Air Force engaged in “Public Use” of GSPAAS.3 Plaintiff argues the
“importance” of his invention is “eloquently stated” in public “only when the
invention is fraudulently and wrongfully claimed” by another.4 Plaintiff includes
several exhibits to show the making and discussion of GSPAAS by the Air Force.
Plaintiff continues to dispute the misidentification of ownership by Defendants,
requesting this Court recognize him as the legal inventor of GSPAAS.
II. STANDARD OF RF.VTF.W
A motion to dismiss for lack of subject matter jurisdiction allows a party to
challenge the subject matter jurisdiction of the district court to hear a case. Fed. R.

2 In addition, Plaintiff has filed variously-styled motions at Documents 11, 17, 24, 26, 28,
32, 34, 36, and 39, some of which seem to respond in opposition to the motion to dismiss!
3 Plaintiff's Response, Document No. 10, at 2.
4 Plaintiff's Response, Document No. 10, at 2.
3

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 4 of 9

CIV. P. 12(b)(1). It is the burden of the plaintiff to prove the court has subject matter
jurisdiction over the claim. In reFema Trailer Formaldehyde Prods. Liab. Litig., 668
F.3d 281, 286 (5th Cir. 2012). A claim must be dismissed if it lacks subject matter
jurisdiction, which may be found in “the complaint alone,” “supplemented by
undisputed facts evidenced in the record,” or “supplemented by undisputed facts plus
the court’s resolution of disputed facts.” Id.
III. LAW AND ANAT.VSIS
A.

Sovereign Immunity
Defendants argue that they are protected by sovereign immunity from

Plaintiffs claim. Construing Plaintiff’s claim liberally, his complaint appears to
indicate a patent infringing activity through false claims of ownership of his
invention.
The United States and its agencies are generally immune from suit without
consent. Freeman v. United States, 556 F.3d 326, 335-34 (5th Cir. 2009). This
immunity is extended to suits against government officials acting in their official
capacity. Danos v. Jones, 652 F.3d 577, 581-82 (5th Cir. 2011). The United States
has agreed to waive sovereign immunity in suits against its employees for the “ use or
manufacturing]” of another person’s patent without a license or authorization.

4

<

1

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 5 of 9
■

28 U.S.C. § 1498(a). This type of claim can only be brought in the United States
Court of Federal Claims. Id.
In the present case, Plaintiff has not shown that sovereign immunity has been
waived. First, Plaintiff identifies the defendants in their official capacity as
employees of the United States. Second, Plaintiffs allegation of “false claim[s]”
involving the misidentification of the inventor of GSPAAS does not constitute the
“use or manufacturing” of his patent, as defined by statute. Third, as required by the
statute, Plaintiff does not allege that the public use of GSPAAS by Defendants was
unauthorized. Fourth, even if the use were without authorization and the waiver
applied, this Court would be the incorrect venue to hear the claim, because only the
Court of Federal Claims has jurisdiction over these types of suits. Therefore, the
Court finds that Defendants are protected by sovereign immunity, and therefore, this
court does not possess subject matter jurisdiction over this matter.
B.

Standing
Defendants argue that Plaintiff was uninjured by the misidentification of the

inventor of GSPAAS, and even if he were injured, the Court could not redress the
injury. A patentee is entitled to protection by a civil trial to remedy violations of his
patent. 35 U.S.C. § 281. The patentee must first show standing to bring the claim into
a federal district court. Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992).
5

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 6 of 9
..

Standing requires an injury to a plaintiff, caused by a defendant, that is repairable by
a favorable decision. Horne v. Flores, 557 U.S. 433, 445 (2009) (“To establish
standing, a plaintiff must present an injury that is concrete, particularized, and actual
or imminent; fairly traceable to the defendant’s challenged action; and redressable by
a favorable ruling”).
/.

Injury in Fact

Plaintiffclaims to be injured by the correspondence misidentifying the inventor
of GSPAAS. A plaintiff must show an “injury in fact,” one that is “concrete,
particularized, and actual or imminent.” Id. When a claim involves a patent, an injury
in fact exists if another party engages or threatens to engage in infringing
activities—i.e., the unauthorized production, use, marketing, or selling of a valid
patent. 35 U.S.C. §§ 271, 281; see also Funeral Consumers Alliance, Inc. v. Serv.
Corp. Inti., 695 F.3d 330, 342 (5th Cir. 2012) (holding that an injunctive relief
request requires current injury or “future threat”).
Plaintiff lacks an injury in fact based on the allegation in his complaint,
because he has not shown his patent ownership rights have been violated to cause him
a concrete or future injury. First, the correspondence sent by Hagel to employees of
Defendants does not involve acts of infringement because this action does not involve
the use, marketing, selling, or unauthorized production of GSPAAS. Instead, the letter
6

\

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 7 of 9
I

merely states the wrong identity of the inventor of GSPAAS. Second, Defendants’
agree Plaintiff is the original inventor, do not dispute Plaintiffs rights to the patent,
and do not threaten future infringement of the patent. The ex-parte reexamination
request in 2002 did not indicate any adverse interest by Defendants, but merely
verified that a patent existed. Third, Plaintiffs reference to the Air Force’s “Public
Use” does not accuse the Air Force of unauthorized use. Fourth, Plaintiff does not
allege that Rea created or threatened any harm, but merely authorized the original
patent. In conclusion, the Court finds Plaintiff does not have standing to bring the
claim, because he failed to show an injury in fact.
2.

Redressability

Defendants argue that even if Plaintiff demonstrated an injury, it cannot be
redressed by the Court. A claim is redressable if it is “likely” that a favorable decision
would relieve a plaintiffs injury. Lujan, 504 U.S. at 561. Requests for injunctive
relief can redress violations only if the plaintiffis “likely to suffer future injury by the
defendant and ... the sought-after relief will prevent that future injury.” Arguello v.
Conoco, Inc., 330 F.3d 355, 361 (5th Cir. 2003). Relief requires more than
“generalized interests] in deterr[ing]” speculative harmful actions. Steel Co. v.
Citizens for a Better Env’t, 523 U.S. 83, 108—09 (1998). Administrative requests to

1

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 8 of 9
\

present compliance reports and records to calm generalized interests do not satisfy the
requirement that a request for relief prevents a future injury. Steel Co523 U.S. at
105.

Plaintiffs request for injunctive relief lacks redressability because (1) it is no
more than a generalized interest in deterrence and (2) Plaintiff already possess the
reliefhe seeks in asking the Court to recognize him as the legal inventor of GSPAAS.
First, Plaintiffs request for a response to a series of questions regarding patent
administrative process submissions is similar to a request for records or compliance
reports. Like the plaintiffs requests in Steel, this type of administrative request is not
a sufficient request to prevent a future threat of harm, because these are merely
general requests that do not deter a threat of infringement or other injury. Second,
Plaintiffs rights would not change with a ruling recognizing his ownership of
GSPAAS, because he has a valid United States Patent Second. Because Plaintiff
already owns the patent to GSPAAS and his request for a response to the series of
questions in the complaint is not a concrete interest for relief, the Court cannot
redress Plaintiffs alleged injury.
IV. CONCLUSION
Based on the foregoing, the Court hereby

8

4
I

.

„

Case 4:13-cv-01914 Document 43 Filed in TXSD on 10/23/13 Page 9 of 9

ORDERS that Defendants’ Motion to Dismiss for Lack of Subject Matter
Jurisdiction, or Alternatively for Failure to State a Claim (Document No. 7) is
GRANTED. Plaintiffs case is hereby DISMISSED without prejudice. The Court
further
ORDERS that all other pending motions are hereby DENIED.
SIGNED at Houston, Texas, on this

day of October, 2013.

9

9

DAVID MTTNER
United States District Judge

*
\* ,

US006292134B1
(12)

United States Patent

(io) Patent No.:
US 6,292,134 B1
(45) Date of Patent:
Sep.18, 2001

Bondyopadhyay

(54)

GEODESIC SPHERE PHASED ARRAY
ANTENNA SYSTEM

(76)

Inventor:

Probir K. Bondyopadhyay, 14.418
Oak Chase Dr., Houston, TX (US)
77062

( *)

Notice:

Subject to any disclaimer, the term of this
patent is extended or adjusted under 35
U.S.C. 154(b) by 0 days.

(21)

Appl. No.: 09/513,014

(22)

Filed:

(60)

Related U.S. Application Data
Provisional application No. 60/121,874. filed on Feb. 26,
1999.

(51)
(52)
(58)

Int. Cl.7 ...........
U.S. Cl...............
Field of Search

Feb. 25, 2000

(56)

H01Q 3/02; IIOIQ 3/12
.......................... 342/374
................. 342/368-384

References Cited
U.S. PATENT DOCUMENTS
5,386,953 * 2/1995 Stuart ........
5,457,465 * 10/1995 Collier et al.

* cited by examiner

244/158 R
.. 342/374

Primary Examiner—Thomas H. Tarcza
Assistant Examiner—Fred H. Mull
(74) Attorney, Agent, or Finn—Marvin J. Marnnck
(57)

ABSTRACT

A geodesic sphere phased array antenna system, capable of
scanning the entire omni-directional communication space
and comprising substantially equilateral triangular planar
subarrays of antenna elements arranged in a geodesic sphere
configuration. Icosahedron, one of the five regular solids and
truncated icosahedron, one of the fifteen semi-regular solids
are the preferred basis of the geodesic sphere phased array
construction. The entire communication space is considered
as subdivided into a large number of smaller cells and
corresponding to each such cellular communication space, a
contiguous set of the subarrays is energized and electroni­
cally phased to scan the cellular space. Another contiguous
set of subarrays is energized and electronically phased to
scan another cellular space in a similar manner resulting in
limited angle scanning requirements which permit the basic
antenna elements to be connected in a cluster as a unit
building block to which transmit/receive signal distribution
and processing means are connected resulting in lower costs
in deployment, operation and maintenance.
30 Claims, 14 Drawing Sheets

22

w
pp
O

G

